U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Aposhian v. Garland, No. 21-159
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 2,
2021, and placed on the Court’s docket on August 4, 2021. The response of the United States is
now due, after one extension, on October 4, 2021. We respectfully request, under Rule 30.4 of the
Rules of this Court, a further extension of time to and including November 3, 2021, within which
to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0159
APOSHIAN, W. CLARK
MERRICK B. GARLAND, ATTORNEY GENERAL, ET
AL.

JOHN D. CLINE
LAW OFFICE OF JOHN D. CLINE
50 CALIFORNIA STREET
STE. 1500
SAN FRANCISCO, CA 94111
415-662-2260
CLINE@JOHNDCLINELAW.COM
CHARLES JUSTIN COOPER
COOPER & KIRK PLLC
1523 NEW HAMPSHIRE AVENUE, N.W.
WASHINGTON, DC 20036
202-220-9600
CCOOPER@COOPERKIRK.COM
ERIK S. JAFFE
SCHAERR | JAFFE LLP
1717 K STREET, NW
SUITE 900
WASHINGTON , DC 20006
202-787-1060
EJAFFE@SCHAERR-JAFFE.COM

MICHAEL JEAN
DIRECTOR - OFFICE OF LITIGATION
COUNSEL
NATIONAL RIFLE ASSOCIATION OF
AMERICA
INSTITUTE FOR LEGISLATIVE ACTION
11250 WAPLES MILL ROAD
FAIRFAX, VA 22030
703-267-1158
MJEAN@NRAHQ.ORG
THOMAS M. JOHNSON, JR.
WILEY REIN LLP
1776 K STREET, NW
WASHINGTON, DC 20006
202-719-4550
TMJOHNSON@WILEY.LAW
CALEB KRUCKENBERG
NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET, NW
SUITE 450
WASHINGTON, DC 20036
202-869-5210
CALEB.KRUCKENBERG@NCLA.LEGAL
ROBERT J. OLSON
WILLIAM J. OLSON, P.C.
370 MAPLE AVENUE W.
SUITE 4
VIENNA, VA 22180
703-356-5076
WJO@MINDSPRING.COM

JOSHUA PRINCE
SCHAERR|JAFFE LLP
1717 K STREET, NW
SUITE 900
WASHINGTON, DC 20006
202-867-4998
GSCHAERR@SCHAERR-JAFFE.COM
LINDSAY S. SEE
SOLICITOR GENERAL OF STATE OF WEST
VIRGINIA
STATE CAPITOL COMPLEX
BUILDING 1
ROOM E-26
CHARLESTON, WV 25305
304-558-2021
LINDSAY.S.SEE@WVAGO.GOV
STEPHEN D. STAMBOULIEH
STAMBOULIEH LAW PLLC
PO BOX 428
OLIVE BRANCH, MS 38654
601-852-3440
STEPHEN@SDSLAW.US
CODY J. WISNIEWSKI
MOUNTAIN STATES LEGAL FOUNDATION
2596 S. LEWIS WAY
LAKEWOOD, CO 80227
303-292-2021
CODY@MSLEGAL.ORG

